                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A05050028                                                                          Page 1 of 1



         Our office received an allegation of plagiarism in two NSF proposals 1. Our inquiry detennined that
         the allegation was substantive and the matter was referred to the subject's institution. The institution
         fonned an investigation committee who reviewed the matter and detennined that the subject
         plagiarized text in the two NSF proposals as well as his dissertation. The institution made a finding
         that the subject committed research misconduct.

        . OIG concurred with the institution's conclusion and recommended that NSF make a finding of
          research misconduct, send a letter of reprimand to the subject and direct the subject" for a period of
          two years, to submit certifications that his proposals do not contain plagiarized materials. The NSF
          Deputy Director concurred with our recommendation and took the recommended actions. This
          memorandum along with the attached report of investigation and the Deputy Director's letter
          summarize this case.

         Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
 .'                                 NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOULEVA'RD '
                                        ARLINGTON, VIRGINIA 22230




       ~
      ..
       OFFICE OF THE
      DEPUTY DIRECTOR

                                                                          OCT 1 "12000 '

.' CERTIFIED MAIL -RETURN. RECEIPT REQUESTED




           Re: Notice ofMisconduct in Science Determi"ation

'DearDr.~




 these proposals contained plagiarized text.


,Scientific Misconduct and Proposed Sanctions
          Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
  or plagiarism in proposing or performing research funded by NSF ... "45 CFR § 689.1(a). NSF
  defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
, without giving appropriate credit." 45 CFR § 689.1(aX3). A finding of research misconduct
  requires that:                                                                         '
           (l) There be a significant departure from accepted practices of the relevant research
               community; and
           (2) The research misconduct be committed intentionally, or knowingly, 'or recklessly; and
           (3) The allegation be proven by a preponderance ofevidence.

 45 CFR § 689.2(c).
                                                                                               ,Page 2
      , Your proposals cont~ verbatim and paraphrased text from several 'Souroe 'documents,
  including numerous internet web sites and one published journal. By submitting a proposal to
  NSF that copies the} ideas or words of another without adequate attribution, as described in the '
, OIG Investigative Report, you misrepresented someone else's work as your own. In addition,
  you failed to properly ackilowledge or-cr-edit the authors of the sour(;e, documents in, your
  proposals. Yout ,conduct unquestionablyconstitutesplagiarism. I therefore conclude that your
  actions meet the definition of "research misconduct" set forth in NSF's regUlations.     '


          Pursuant to NSF regulations, the Foundation must also detennine whether to make, a
 .finding of misconduct based on a preponderance of the evidence. 45CFR § 689;2(c). ' After
  reviewing the Investigative Report and the University Committee Report, NSF ha'S determined
  that, based on a preponderance of the evidence, your plagiarism was committed knowingly and
  constituted a significant departure from accepted practices of the' relevant research -community. I
  am, therefore, issuing a finding of research misconduct against you.


          NSF's regulations establish ,three categories of actions (Group I, II, and Ill) that can be
, taken in response to a finding of misconduct. 4S CFR §689.3(a).Group I actions include issuing
  a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
  requiring that an institution or individual obtain special prior approval of particularactivi!ies
  from NSF; and requiring that an inStitutional representative certify as to the accuracy of reports
  or certifications of compli!ll1ce with partic~lar requirements. 45 CFR §689.3(a){1). ,Group II
  'actions include 'award suspension or restrictions on desigitated activities or' expenditures;
  requiring special reviews of requests for funding; and requiring correction to the researCh record.
  45 CFR §689.3(a)(2). Group ,ill actions include suspension or tennination of awards;
  prohibitions on partiqipation as NSF reviewers, advisors or consultants; and debarment' or
  suspension from participation in NSF programs. 45 CPR § 689.3(a)(3).


         In determining the severity' of the sanction   to    impose for research misconduct, I- have,
, considered the seriousness of the misconduct, our determination that it was knOWing, as well as
  our determination that it waS a part of a pattern of plagiarism. I have also con'Sidered the fact that
  your misconduct did not have a significant impact on the research record, your willingness to
  accept 1."esponsibility for your actions, and the contrition that you dymonstrated during the course
  of the investigative process. I have also considered' other relevant circumstances. 45 CFR §
  689.3 (b).


         In lightofthe foregoing, I am requiring that, from the date of this letter until November 1,
 2008, you, certify that any proposal you submit as a principal investigator or co-principal
 investigator does not contain plagiarized material. In addition, you are required to complete a
 training course on ethics in scientific research before submitting any additional proposals to NSF
 but, in any event, no later than November 1,2007. You must certify in writing to the Office of
             ·.L



                                                                                                        Page 3
              Inspector General, 4201 Wilson Boulevard, Arlington, Virginia 22230, that such training has
             -been completed.


     .. '- ....--··_·P-r-oc-edures·-Goveming Appeals-
                    Under NSF's regulations, you have 30 days: after receipt of this letter to submit 'an appeal
            of this decision, in writing, to the Director of the Foundation. 45 CFR §689.10(a). Any appeal
            should be addressed to the Director at the National Science Foundati<m. 4201 Wilson Boulevard,
          . Arlington, Viigiriia 22230. If 'we do not receive y()ur appeal within the 30-day period; this
            decision .will become final. For your information we are attaching a copy of the applicable
-----...re5?igumlations:- If you bave any queStions about UIt~ foregoing;-piease-call
                               at (703) 292-8060. .



                                                                  Sincerely, .

                                                                   ~l.O~
                                                                   Kathie LOlsen .
                                                                 . Deputy Director

             . Enclosures
                  Investigative Report
               - 45 C.F.R. 689
CONFIDENTIAL                                  CONFIDENTIAL




         National Science Foundation
         Office of Inspector General




                          Confidential
                      Investigation Report
                    Case NUlllber AOSOS0028

                          ,20 June 2006


CONFIDENTIAL                                  CONFIDENTIAL

NSF OIG FORM 22B (1103)
                                                   Summary


The Office of the Inspector General (OIG) has concluded that the subjectl committed plagiarism
in an NSF proposal. As part of an investigation, the institution's Research Integrity Committee
(RIC) found that the subject plagiarized about 65 lines oftext into two NSF proposals. In
addition, the university was infonned that the subject plagiarized approximately twenty percent
of the "Background" section of his dissertation. The RIC concluded that the subject committed
research misconduct and the university adjudicator concluded that his actions were a part of a
pattern of plagiarism. OIG concludes that the evidence supports a finding of research
misconduct and recommends that NSF take the following actions:

        •    Make a finding of research misconduct and issue a letter of reprimand to the subject;
        •    Direct the subject to complete a research ethics course within one year; and
        •    For two years from the date of the letter of reprimand, require the subject to certify
             that proposals he submits to NSF do not contain plagiarized materiaL

                                                  OIGInguiry

Our office received an allegation that one paragraph of a proposal's Project Description was
plagiarized from a web page. Our review of the proposal (Proposal A)2 identified 48 lines of
unattributed copied text. We also reviewed a second proposal (Proposal B)3 written by the
subject and submitted in the same time frame as proposal A. We found an additional 26 lines of
copied text. 4 We also noted that within the copied text, the subject had removed some of the
existing references and replaced them with references to his own published work.

We wrote to the subject to get his perspective on the allegation. 5 In his response,6 the subject
stated he "was not aware of how to cite from web sites" and that he "did not know how to cite
this work and weather [sic] or not we are required to site [sic] the web sites in the Literature
Cited in the NSF proposals.,,7

The subject further stated that text from one of the source documents we identified was, in fa<;:t,
not the source he used for the text. He stated that the text was taken from documents he authored
(or co-authored) and from his dissertation. However, we noted that the source document we
provided to him appeared to pre-date both the documents he authored and his dissertation.




  Approximately 9 lines of copied text was common to both proposals, thereby resulting in a total of 65 lines of non-
overlapping copied text.
sTab 2.
6 Tab 3.
7 Tab 3, page 1

                                                            ~----   .. -.---- ...   -.--~-----   ....   ---.-~----   -~-~-   ...•....•.   _---_ ..   __   ._--_._-------_ ......
Based on the subject's response, we determined that a full investigation of this matter was
warranted. Therefore, we referred the matter to the subject's university for investigation.


                                          University Investigation


The University convened a Research Integrity Committee (RIC) to investigate this matter. 8 The
RIC interviewed the subject who explained that he had "no grant writing experience." He stated
that he "did get some definitions from websites" but claimed that he "forgot to put a footnote to
the websites." The subject further stated that he "failed to put those websites in the references"
because "he didn't know [he needed] to do that.,,9

The subject expressed great concern that a paragraph from his dissertation was apparently copied
from one of the alleged source documents. The su.bject asserted that he had never seen this
document before. He said that his advisors had edited some of his writings and that perhaps one
of the advisors had given him the text and, thereafter, he had failed to "add the reference.',10 Tpe
subject notified the committee that he had contacted his dissertation advisors regarding the
copied text that was common to his proposals and his dissertation. He further informed the
committee that his advisors were willing to meet with the committee to "explain things or clarify
things. ,,11

 One ofthe subject's dissertation advisors l2 traveled to meet and be interviewedby the RIC. The
advisor described the "sequential process of dissertation and research writing,,13 within his
laboratory. The advisor introduced the idea of boilerplate text, where students sometimes used
previously written text when it "cannot be written any better.,,14 He explained that these
sentences are used by students in the lab, with the lab's permission. The advisor said that once a
student's Introduction and Materials and Methods sections were reviewed and approved, it is
unlikely that any cornmittee members would reread those sections in later drafts.

During the interview, the advisor further stated "if a student changes his introduction massively
as [the subject] did and plagiarized, it's highly unlikely that any of the committee will read it." 15
When asked to what extent the subject's dissertation was apparently plagiarized, the advisor
stated that about twenty percent of the second chapter required revision because of the apparently
copied text. The advisor further stated that in an earlier discussion with the subject, the subject
acknowledged that he copied the text and desired to correct his errors. The advisor described the
subject as "accepting of responsibility and making a clean breast ofit.,,16


8 Tab 5. OIG has attached the main body of the report with all its attachments. The complete report with
attachments is available at our office.
9 Tab 5, page 12 .
10 Ibid.
II Tab 5       13
12

13 Tab 5, page 15
14 Ibid.
15 Ibid.
16 Ibid.
The advisor also informed the committee of an incident that occurred in 1999 in which the
subject plagiarized a protocol from a website. No formal record of this incident was recorded.
The advisor stated that the subject was informed of his error and was reprimanded. The advisor
also noted that one committee member asked to step down from the dissertation committee as a
result of this evertt.

Based on the information it gathered, the RIC concluded that "the preponderance of the evidence
proves that the plagiarism committed by [the subject] truly reflects a significant departut:e from
acceptable practices of the relevant research community." 17 The RIC concluded that the subject
"recklessly plagiarized from numerous websites and that the subject knowingly plagiarized from
one journal article." The RIC also concluded that any pattern of plagiarism by the subject was
"erratic and episodic."

The University provost agreed with the RIC's conclusions and took the following actions: (1) a
letter of reprimand was placed in the subject's rersonne1 file; and (2) the subject was barred from'
submitting proposals to outside organizations. l We also note that the subject was not        -
reappointed to the faculty for the 2006..:2007 academic year. This action was separate from the
investigation process and occurred before the RIC completed its investigation.


                                              OIG Investigation


During the university's investigation, they requested OIG utilize its plagiarism analysis software
to analyze several documents authored by the subject. Our office analyzed the subject's most
recent NSF proposal, several articles the subject authored while employed by the UIfiversity. and
the subjeces dissertation. Although the NSF proposal and the authored articles appeared free of
copied text, the second chaf,ter ofthe subject's dissertation contained approximately eight pages
of unattributed copied text. 9 This discovery was consistent with information the thesis advisor
provided to the RIC.

We noted that the subject's dissertation work was not sponsored by NSF and thGrefore is
noteworthy to NSF only for purposes of establishing a pattern to the subject's actions. Further
information provided by the subject indicates the university which conferred his Ph.D. degree
has agreed to allow the subject to revise the copied portions of his dissertation without imposing
any additional penalty.


                                              OIG's Assessment


OIG reviewed the RIC report and we conclude that the university's processes were fair, timely,


17 Tab 5, page 17
18 Tab 4.
19 Chapter two of the subject's dissertation and associated source documents are located at Tab   6.
        and accurate. We agree with both the RIC and university adjudicator's conclusions2o with a few
        minor exceptions, as noted below.

        NSF's Research Misconduct Regulation states that a finding of misconduct requires:

               (1) There be a significant departure from accepted practices of the relevant research
               community; and (2) The research misconduct be committed intentionally, or
               knowinglr, or recklessly; and (3) the allegation be proven by a preponderance of the
               evidence. 1

                                                                                            The Act

        The University's RIC concluded the preponderance of the evidence showed that the subject did,
        in fact, inappropriately copy text from multiple sources into two of his NSF proposals. We
        concur with the RIC's assessment. Our inquiry estimated the amount of copied text at
        approximately 65 lines of text. The RIC's investigation did not identify any additional copied
        text in the two NSF proposals.

                                                                                               Intent


        The University's RIC found that the subject acted recklessly when he copied the text from
        websites into his NSF proposals. The RIC also concluded that the subject acted knowingly when
        he copied material from a journal article into his proposals.

        Although the subject claimed that he did not know how to cite website materials, and did not
        provide footnotes to those sites, we conclude the subject acted knowingly in all his actions and
        that the comments from the subject's dissertation advisor support our conclusion. The RIC
        noted a 1999 incident, related by the advisor, in which the subject had been warned regarding a
        protocol he copied from a website into another document. The advisor stated the subject had
        been reprimanded, although no written record was made. Clearly the incident was serious, since
        one committee member stepped down from the committee as a result of the subject's actions.

        Thus, the subject was warned in 1999 regarding the inappropriateness of unattributed copying of
        text from the web. This makes it difficult to support the RIC's conclusion that the subject's·
        actions were reckless (i.e. should have known better but did not). Instead we conclude that the
        1999 reprimand served as adequate notice regarding the impropriety of unattributed copying and
        we conclude that the preponderance of the evidence shows the subject did in fact know what he
        was doing when he copied text from both the web sites and the journal article without appropriate
        citation.




        20                                    letter is located at Tab 5. _                                       is the Provost and VP for Academic Affairs.
        21
             45 C.F.R. Section 689.2
..   ------.--. _.. - .. _------_ .._.. -   .... --------. -   .--.--.-.--.~-.-.   -_   ... _._.   __._ ...-._-_._-_   •.... _---_ ...   __.__. _._--_..   _ .....   - -_._--   - ..
                                                                                                                                                                                   --~-.------   ....- - - ...
                                       Standard of Proof


The University RIC concluded that the preponderance of the evidence showed the subject
inappropriately copied text from multiple sources into two of his NSF proposals and in doing so
he significantly departed from community standards. We concur with the RIC's conclusion and
as a result we also conclude that the subject's actions constitute plagiarism and, therefore, that
the subject did commit Research'Misconduct.           r




                  Subject's Comments on the Draft Report of Investigation

The subject was prOVided a draft copy of this report and was offered the opportunity to make
comments. His comments are located in Tab 7. The subject disagreed with our assessment of
his intent (knowing) and our assessment of his pattern of plagiarism. However, he provided no
additional evidence to dissuade us of our assessment.

The subject also took issue with statements about a committee member stepping down from his
Ph.D. committee. The subject stated that the individual was never a part of his committee.
However, the University report directly quotes the subject's dissertation advisor regarding this
matter and therefore appears to be credible. Therefore, we are forwarding this report without
changes.


                               OIG's Recommended Disposition

In deciding what actions are appropriate when making a finding of research misconduct, NSF
must consider several factors. These factors include how serious the misconduct was; whether it
was an isolated event or part of a pattern; its impact on the research record; and other relevant
circumstances. .

                                           Seriousness

As we noted above, we concluded the preponderance of evidence supports the conclusion that
the subject acted knowingly when he plagiarized materials into his proposals, a significant
departure from the accepted practice in the research community. Plagiarism strikes at the heart
of research integrity and is an unacceptable practice within the research community. Although
the amount of plagiarized text was moderate, we believe the level of misconduct was sufficiently
serious to warrant a finding of research misconduct with additional actions.

                                  Impact on the research record

There was no apparent impact on the research record as a result of the subject's actions.

                                      Evidence ora Pattern


As mentioned earlier, the RIC was informed by the subject's advisor that a sizeable portion of
the second chapter of the subject's dissertation contained unattributed copied text. Although we
did not fully assess this copied text, the advisor did convey to the RIC that the subject admitted
to plagiarizing the text in the dissertation. Similarly, the subject has been previously v<;::rbally
counseled for plagiarizing a protocol from a website. These acts are consistent with a pattern of
plagiarism.

                                           Recommendations

We recommend that NSF take the following actions as a final disposition in this case to protect
the interest of the Government:

       1. Issue a letter of reprimand infOlming the subject that NSF has made a finding of research
          misconduct against him,22                          .

       2. Direct the subject to attend a course in research ethics within one year of the final
          disposition of the case, and

       3. For two years from the date of the letter of reprimand, require the subject to certifY that
          proposals he submits to NSF do not contain plagiarized materia1. 23




22   This is a Group 1 action.
23   This is a Group 1 action,
